Orrick, Herrington & Sutcliffe LLP

1152 15th Street NW
Washington, DC 20005

September 19, 2019
Via Electronic Filing and Hand Delivery
Hon. Scott S. Harris
Clerk of the Court
Supreme Court of the United States
1 First Street, N.E.
Washington, DC 20543
Re:

+1 202 339 8400
orrick.com

Mark S. Davies

E mdavies@orrick.com
D +1 202 339 8631
F +1 202 339 8500

Regents of the University of Minnesota v. LSI Corporation, et al.,
No. 19-337

Dear Mr. Harris:
We represent Respondents Ericsson Inc., Telefonaktiebolaget LM Ericsson,
LSI Corporation, and Avago Technologies U.S., Inc. in the above-captioned case.
Pursuant to Rule 30.4, we are writing to request a 30-day extension of time to file
Respondents’ briefs in opposition to certiorari.
The petition for certiorari was filed and docketed on September 12, 2019. The
deadline for Respondents to oppose the petition is October 15, 2019. If the requested
extension of time is granted, Respondents’ briefs in opposition would be due on
November 14, 2019.
Respondents respectfully request this extension due to the press of other
matters, including several before this Court: a brief in opposition due on October 3
in Amarin Pharma, Inc. v. Int’l Trade Comm’n, 19-152, and a petition for certiorari
due on October 30 in Apple Inc. v. VirnetX Inc., due October 30, 2019.
Thank you in advance for your consideration of this matter.

Very truly yours,

Mark S. Davies
Counsel for Ericsson Inc. and
Telefonaktiebolaget LM Ericsson

Adam H. Charnes
Counsel for LSI Corporation and Avago
Technologies U.S., Inc.
cc: Counsel for Petitioner (via overnight mail and email)

2

